TN

C@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 a | B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-520
ALAN PHILIPP,

GERALD STIEBEL, AND JED LEIBER,
Conditional Cross-Petitioners,

Vv.
FEDERAL REPUBLIC OF GERMANY,
A FOREIGN STATE, AND STIFTUNG
PREUSSISCHER KULTURBESITZ,
AN INSTRUMENTALITY OF A FOREIGN STATE,
Conditional Cross-Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF IN SUPPORT OF CONDITIONAL
CROSS-PETITION FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
NICHOLAS M. O’DONNELL
Counsel of Record
ERIKA L. TODD
SULLIVAN & WORCESTER LLP
One Post Office Square
Boston, MA 02109
(617) 338-2814
nodonnell@sullivanlaw.com

Counsel for Conditional
Cross-Petitioners

Subscribed and sworn to before me this 30th day of December, 2019.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ne, i E Clit Qudiow-h, Chk

My Commission Expires Nov 24, 2020
Notary Public Affiant

 

 

39237
 

Jonathan M. Freiman Wiggin & Dana LLP
Counsel of Record One Century Tower
P.O. Box 1832
New Haven, CT 06508-1832

203-498-4584

jfreiman@wiggin.com

Party name: Federal Republic of Germany, et al.

 

 

 
